                                                                                                                     March 11, 2014

The Honorable Dr. Rajiv Shah
Administrator, U.S. Agency for International Development

Mr. William Hammink
Mission Director for Afghanistan, U.S. Agency for International Development


Dear Administrator Shah and Director Hammink:

I am writing to alert you to our concerns about cost increases for the Kandahar Helmand Power
Program (KHPP) that I believe require your immediate attention. Specifically, I am concerned about
$75 million the U.S. Agency for International Development (USAID) has obligated for the installation
of an additional power generating turbine at the Kajaki Dam.1 In four years, the estimated cost of
installing this turbine has more than tripled. Moreover, according to USAID’s own analysis, the cost
increase outweighs the benefits derived from the entire KHPP.

In December 2010, USAID awarded a contract to Black
                                                               Table 1: Kajaki Unit 2 Project Cost
and Veatch Special Projects Corporation (Black & Veatch)
                                                               Changes (2010-Present)
to complete the KHPP. According to USAID, the program is
designed to fuel economic growth by addressing electrical
                                                               Original Estimated Cost    $16,964,925
supply shortfalls in the Kandahar and Helmand provinces.
KHPP is one of USAID’s largest active programs in
Afghanistan, with a total estimated cost of about $266         Current Estimated Cost     $75,000,000
million. This project has six components, including the
installation and commission of an additional turbine for       Change ($)                 $58,035,075
the Kajaki Dam, known as the Kajaki Unit 2 Project. In
January 2013, at the request of the Afghan government,         Change (%)                 342%
USAID removed the requirement for the installation of
Kajaki Unit 2 from its KHPP contract with Black and Veatch Source: USAID Data; SIGAR analysis
and transferred responsibility to the Afghan government.
However, USAID did not reduce the original total estimated
cost of $266 million for the program, but instead modified the contract to fund technical assistance
support to the Afghan government. USAID then obligated an additional $75 million under an existing
grant with the Afghan government to fund the installation of the turbine unit. As shown in Table 1,
the $75 million to be provided to the Afghan government is approximately $58 million more than the
original estimated cost of the turbine unit.



1The funding was obligated under the existing USAID Strategic Grant Agreement for a Thriving Economy Led by the Private Sector. The
Kajaki Dam has long been recognized as a potential source of sustainable and renewable power to southern Afghanistan. The United
States first began construction on the Kajaki Dam in the early 1950s to provide irrigation and electricity to the region. The dam has been
plagued by problems and neglect throughout its history and remains incomplete.
With the additional funding provided for the Kajaki Unit 2 project, the cost for all six components of
the original KHPP consequently increased by $75 million to $345 million. This cost increase
indicates that the KHPP may no longer be economically viable. According to a 2011 USAID economic
analysis of KHPP, the costs of the program would outweigh its benefits if actual costs exceeded the
estimated costs by more than 16 percent.2 In other words, based on the original cost estimate of
$270 million for the KHPP, any cost increase exceeding $43 million (or 16 percent) would make the
KHPP economically unviable. Our analysis showed that the cost increase of $75 million for the
turbine unit represents a discounted increase of $59 million (or 22 percent) for the overall KHPP.3

Table 2 provides details of our cost calculations.

    Table 2: Economic Viability of the KHPP
                         Total Estimated        Cost before Program Is Unviable            Actual Cost        Discounted Actual Cost
                               Cost                                                                                        a


    Dollar Amount       $270,000,000 b                   $313,200,000                    $345,000,000              $329,789,541

    Percent of Total
                              100%                             116%                           128%                      122%
    Estimated Cost

    Source: USAID Economic Analysis of Kandahar Helmand Power Program; SIGAR Analysis
    a Discounted to 2011 dollars, see footnote 3 for details.
    b The USAID analysis rounded the $266 million cost up to $270 million.




Although USAID has obligated $75 million to the Afghan government to install the turbine unit, those
funds have not been disbursed. Because of our concerns over the cost increases, we are requesting
that before disbursing those funds, USAID explain why the cost of the turbine unit increased from
$16.9 million to $75 million. We would also like to know which considerations were factored into
USAID's decision to approve such an increase given that USAID was aware that the additional
funding would cause the program's costs to outweigh the benefits. We request that you provide a
formal written response no later than March 28, 2014.




2United States Agency for International Development, Economic Analysis of Kandahar Helmand Power Program (KHPP), 2011. The authors
of the analysis states that “the economic analysis was conducted using traditional methodology of a cash flow analysis considering
economic opportunity costs and benefits. The methodology compares the anticipated benefits and costs of the KHPP against the
counterfactual, which models what the economic situation in Afghanistan would be if KHPP never existed. This economic analysis
compared the annual gross benefit stream against the annual gross costs for an overall analysis of the net benefits.”
3 To maintain consistency with USAID’s analysis, we calculated the net present value of the $75 million cost increase. For our calculations,
we used the same assumptions that USAID did in its Economic Analysis of Kandahar Helmand Power Program. USAID used a 12 percent
discount rate, a base year of 2011, and a base cost of $270 million. Given that the funds were obligated in 2013, we used 2 years for the
time variable in the expression. In order to calculate the value of $75 million in 2011 dollars, we used the following equation:
75,000,000/(1.122)=59,789,541. According to Office of Management and Budget guidance, the standard criterion for deciding whether a
government program can be justified on economic principles is net present value--the discounted monetized value of expected net benefits
(i.e. benefits minus costs). Net present value is computed by assigning monetary values to benefits and costs, discounting future benefits
and costs using an appropriate discount rate, and subtracting the sum total of discounted costs from the sum total of discounted benefits.
Discounting benefits and costs transforms gains and losses occurring in different time periods to a common unit of measurement. The
USAID analysis calculated the net social gain by subtracting the producer loss (costs to the program) from the consumer surplus gained by
the benefits of the program.




SIGAR-14-40-SP Inquiry Letter: Kajaki Unit 2 Project                                                                               Page 2
Should you have any questions or need additional information, please contact Jack Mitchell, Director
of Special Projects, at              or at                                . Thank you in advance
for your attention to this matter.




                                                             Sincerely,



                                                             John F. Sopko
                                                             Special Inspector General
                                                               for Afghanistan Reconstruction




SIGAR-14-40-SP Inquiry Letter: Kajaki Unit 2 Project                                          Page 3
MEMORA~DUM                                                   March 28. 201 4


TO:            John F. Sopko
               Special Inspector General tor
               Afghanistan Reconstruction (SIGAR)

f'ROM:         Donald L. .. Larry.. Sampler     ~
               Assistant to the Administrator for
               A(ghanistan and Pakistan Affair.

SUOJECT:       Response to SIGAR's 14--10-SP Inquiry Letter Regarding the Kajaki
               Unit 2 Turbine Installation Project

USAID would like to rhank SIGAR for the opportunity to respond to concerns about
cost increases for the Kandahar Hclmand Power Project (KHPP) and the related on-
budget Kajaki Unit~ Turbine Installation Project (Kajaki Unil 2 Project). We
constantly scrutinize our programs and oversight mechanisms to ensure taxpa)'er
dollars arc protected in Afghanistan. This is a challenging. but essential part of the
work we do in Afghanistan. Oversight provided by SIGAR. rhe USAID Inspector
Gl!neral and GAO. assists us in implementing effective programs that support our
national interests.

With regard ro your recent Inquiry Letter on the KHPP and Kajak i Unit 2 Project
your findings appear to reflect a misunderstanding of USAID contracting
processes. SIGAR claims USAID"s $75 million on-budget obligation tor Unit 2 is a
3-12% cost increase: however. the $75 million estimate is aligned with USAID"s 2011
cost estimate. Thl! letter also states rhat USAID did not decrease the KHPP contract
ceiling. In facL USAID made a contract modification that decr~ased the ceiling by
$38 million.

                       to
We encourage SIGAR request input from USAID bclore publishing Inquiry Letters
that may bl! based on inaccurare infonnation and include erroneous findings.

Finally. in assessing whether a specific project is meeting its objL-ctives. we urge
SIGAR to consider the U.S. Govemmcnt"s goals in implementing the project. In the
case of the Kajaki Unit 2 Project. USAID"s investment is not simply based on direct
economic returns. but also predicated on significant security and governance
objectives that the U.S. Govemment and the Government of the Is lamic Republic of
Afghanistan arc working together to achieve in Afghanistan.

A more dl!tailed response to SIGAR"s ass l!rtions is included in the attachments of this
memorandum.




                                                                                  !'age I
            ..
Attachments:

      I. Technical Comments
      2. Table 8.4: KHPP Contract Budget Line Items
      3. Response to SIGAR on KHPP Economic Analysis



cc:
  ~




Dr. Rajiv Shah
Administrator, U.S. Agency for International Development

William Hammink
Mission Director, U.S. Agency for International Development/Afghanistan
fS'·USAID
~       FROM THE AMERICAN PEOPLE


                                                                                      ATTACHMENT 1

 Response to SIGAR's 14-40-SP Inquiry Letter Regarding the Kajaki Unit 2 Turbine
 Installation Project

 TECHNICAL COMMENTS

 The Inquiry Letter asserts the following points about costs related to KHPP and the
 Kajaki Unit 2 Project:

      1. That USAID' s estimated cost for the Kajaki Unit 2 project has more than
         tripled in four years, from $17 million in 2010 to $75 million currently.
      2. That "USAID did not reduce the original total estimated cost of$266 million
         for KHPP, but instead modified the contract to provide technical assistance
         support to the Afghan government."
      3. T hat, with such cost increases, KHPP and the Kajaki Unit 2 Project are not
         economically viable by USAID's own Cost-Benefit Analysis (CBA).

 We disagree with each of the assertions above and provide the following responses.

 1) USAID Unit 2lnstallation Cost Was Estimated to be $89 Million, Not $17
    Million

 The $16,964,925 (rounded to $17 million) figure for the original estimated cost of the
 Kajaki Unit 2 Project that SIGAR referenced from the original KHPP contract (see
 Attachment 2) was never an estimate of the full cost of installation. This figure
 included a cost estimate for the Unit 2 inventory assessment but not full installation
 costs, and represented only a "plug figure" place holder budget item for equipment
 replacement and installation costs. 1 USAID uses plug figures for projects operating in
 uncertain situations under cost-reimbursement type contracts. They are not offered as
 precise estimates.

 The reason for the placeholder budget was simple: there were over 40,000 Unit 2
 parts and units of materials at the Kajaki site. These items were brought to the site in
 2007-2008 under a prior contract and accompanied by varying levels of
 documentation. The condition and suitability of this equipment for successfully
 installing Unit 2 was unknown when the KHPP contract was issued. Given these


 1
   The original KHPP contract issued in December 2010 contains a footnote in Table B.4 Budget Line
 Items (see Attachment 2) stating that the estimated cost for Component 6 "Installation and commission
 Kajaki Unit 2" is provided as a plug figure. The footnote states that this line item figure authorizes
 B&V to proceed only with inventory assessment; it requires prior written approval of the Contracting
 Officer before proceeding with other activity sub-components including installation. Note that
 Component 6 contains three subcomponents - 6.1 (Assessment), 6.2 (Equipment Replacement), and
 6.3 (Installation). The $17 million initial budget for Component 6 contained a cost estimate for 6.1 and
 plug figure budgets for 6.2 and 6.3.
                                                                                                  Page 1
                                             Tel: 202-216-6288/ 0700-108-001
 U.S. Agency for International Development   Email: kabulusaidinformation@usaid.gov
 Great Massoud Road                          http://afghanistan.usaid.gov
 Kabul, Afghanistan
circumstances, USAID took the most prudent course of action for contracting Unit 2
installation.

As stated by Black & Veatch (B&V) in its fmal proposal in November 2010 and
accepted by USAID, " .. .it is not possible at this time to submit cost information on
CLINs [Contract Line Item Numbers] 6.2 and 6.3," referencing the budget line items
for the installation ofKajaki Unit 2. B&V goes on to state that " ... it is in the best
interest of the Government to execute a modification to the contract upon completion
ofCLIN 6.1 [for inventory assessment] ... based on real facts on the ground and
examination of these by USAID."

As required by CLIN 6. 1 of their contract, B&V submitted its Assessment Report, in
August 2011, including a cost estimate and proposed schedule for installing Unit 2.
B&V's initial estimated cost was $99 million, including all security, logistical, and
other support costs. Following technical reviews and negotiation with USAID, B&V
reduced their cost estimate to $89 million for the Unit 2 installation. While reduced,
this figure was still contingent on tendering the installation subcontract, which
represents the largest cost component of the project.

2) USAID Not Only Modified the KHPP Contract to Include Technical
   Assistance to the Afghan Government; USAID Also Decreased the Total
   Estimated Cost for the Contract by $38 Million

SIGAR's Inquiry Letter states that following the transfer of Unit 2 responsibility to
the Afghan Government in January 2013, "USAID did not reduce the total estimated
cost of the $266 million for the program, but instead modified the contract to fund
technical assistance support to the Afghan Government."

In December 2013, after Da Afghanistan Breshna Sherkat (DABS) demonstrated that
it could successfully contract for the Kajaki Unit 2 Installation, USAID modified
B&V's KHPP contract to reduce the total estimated cost to $228 million, a decrease
of $38 million. This decreased total estimated cost includes funding for the
aforementioned technical assistance. Coupled with the $75 million on-budget
component for the Kajaki Unit 2 Project through DABS, the total estimated cost for
KHPP and the Kajaki Unit 2 Project in total is now $303 million, a total increase of
$37 million over the original total estimated cost for KHPP - not a $58 million
increase as SIGAR asserts.

3) KHPP Continues to Be Economically Viable

In the USAID Cost-Benefit Analysis (CBA), which was performed in 2012, it stated
that a 16% increase in the 2011 dollar value of actual costs would make the project
unviable. As explained in the Economic Analysis methodology, this was referring to
all economic costs including USAID program costs as well as diesel fuel and
operations and maintenance for the next 20 years. SIGAR misconstrued the 16%
figure to refer only to USAID program costs and did not consider other costs such as
diesel and O&M; consequently, the 2011 dollar value of a 16% increase in all
economic costs is $377.6 million, not $313.4 million, as SIGAR asserts? In fact,
2
 In addition, USAID questions SIGAR's methodology used in its CBA. See Attachment 3 tor
discussion of methodology used by USAID in its original2012 CBA.
                                                                                          Pagc2
according to the original analysis, USAID program costs could increase by up to
21.5% and remain economically viable, holding all other costs constant. However,
considering that total KHPP program costs have only increased by roughly 12% (the
above mentioned $303 million) from the $270 million figure modeled in the economic
analysis, KHPP will remain below the break-even point for economic viability even if
there is future cost escalation of the $75 million on-budget Unit 2 component.
Additionally, as part ofUSAID's normal internal review process, the agency will
conduct an updated Cost-Benefit Analysis later this year that will focus on Kajaki
Unit 2 as an on-budget project.

While USAID's CBA demonstrates that KHPP and Kajaki Unit 2 are economically
viable, it is important to note that the strategic value of these projects is far greater
than what can be presented from a strictly economic point of view. The benefits in
the economic analysis include only those that can be monetized, such as additional
electricity supply for consumers connected to the grid. The KHPP and Kajaki Unit 2
projects carry strategic counter-insurgency (COIN) related benefits that the CBA does
not capture. These activities will continue to have positive effects on stabilization in
Helmand and Kandahar. As a result, USAID believes that any economic analysis
significantly undervalues the overall benefits of implementing KHPP and the Kajaki
Unit 2 Project. These activities remain a political priority for both the Afghan and
U.S. Governments, of great symbolic and stabilization value for the region, and
should not be judged solely on the basis of economic cost.




                                                                                   Page3
  Contra.ct No. 306-C..()()..ll-00506-00
  Black & Veatch Special Projects Corporation
  Kandahar Power Initiative (KPl)



  8.4        BUDGET LINE ITEMS

              Sub-
  CLIN
              CLIN
   No.                                            CLIN Descri~tion                       Estimated Cost       Fixed Fee
               No.
     1                    Improve Kandahar Power Distribution System                     $86,238,176        $4,743,100.00
                 1       Renovate the Kandahar Breshna Substation
                         Refurbish and expand the Kandahar City Medium Voltage
                 2
                         and Low Voltage Distribution System
                 3       Construct new Kandahar East Substation
                         Construct a transmission line b/w the Kandahar Breshna
                 4
                         Substation and the new Kandahar East Substation
                         Replacement of 14 Diesel Generators at the Breshna
                 5
                         Substation
                                                                                         $28,850,784
    2                    Rebuild Durai Junction Substation                                                  $1 ,586,793.00

                 I       Rebuild Durai Junction Station

                 2       Procure equipment for additional substations

                         Regional Camp and Program Management                            $73,176,057        $4,024,683.00
    3
                         Transportation, Installation, Operation and
    4                    Maintenance of Kandahar Industrial Park Diesel                  $4,503,782         $247,708.00
                         Power Plant
                         Rebuild the Kajaki Dam Substation and Local
    5                                                                                                       $2,381 ,516.00
                         Distribution System                                             $43 300296

    6                    Installation and commission Kajaki Unit 2*                      $16,080,498        $884,427.00

                 1       Perform inventory assessment of GFE
                         Repair GFE, provide missing and additional new
                2
                         equipment for completing Unit 2 installation
                3        Install and commission Kajaki Unit 2

                                                                  Total Estimated Cost   $252,149,593.00

                                                                             Total Fee                      $13,868,227.00

                                                                                                           $266,017,820.00
                                                Total Estimated Cost Plus Fixed Fee

* The estimated cost of CLIN 6 is provided as a plug figure; Contractor is authorized to start performing on
 sub-CLIN 6.1 upon Contract award. Performance under Sub-CLINs 6.2 and 6.3 will require prior written
 approval of the Contracting Officer.




                                                              5
Attachment 3: Additional Response to SIGAR on KHPP Economic Analysis

Economic Viability of KHPP (millions, USD) - discounted to 2011 dollars
--    ----                                         -----             -------------------------------------------------~

                                Originally estimated             Total estimated economic costs of KHPP                                           Total Actual
                                                                                                                     Economic Cost
                               Program Cost of KHPP           (including $270 million program costs, diesel                                     Economic Cost
                                                                                                                     Before Program
                                    ($270 million                   fuel, operations and maintenance,                                           (includes $303
                                                                                                                    Becomes Unviable
                                   undiscounted)                        environmental externality)                                          Million Program Cost)

      Dollar Amount
      (discounted to                   $238.2a                                     $325.5b                                $377.6c                   $347.8d
        2011 USD)
                 --
    Percentage of Total
         Estimated                      73.2%                                      100.0%                                   116%                     106.8%
     Economic Costs



a Progr am funds were anticipated to be spent between 2011 and 2014. This figure is the value of the funds discounted to 2011 dollars using the USAID
standard 12% economic opportunity cost of capital (or discount) rate. Therefore, the discounted value does not equal the undiscounted estimate of KH PP
progr am costs of $270 million.

b   Because an economic analysis is not a financial analysis - which is strictly cash flows - this economic analysis considered all economic cost s of the KHPP
program, which includes operations and maintenance for both the Kajaki Unit 2 and the new substations, as well as the costs to run the new diesel plants (ie,
diesel fuel). It also includes environmental externalities associated with increased carbon dioxide emissions.

c In the original executive summary, the value of actual costs as a percentage of estimated costs for which Net Present Value of KHPP = 0 was 116% (see page
10). "Costs" in this analysis is economic opportunity costs, as stated in the economic analysis methodology section on page 4. The dollar value of a 16%
increase in all discounted economic costs is $377.6 million. This reflects a 16% annual increase in all costs including the program costs, operations and
maintenance, variables costs such as fuel, and environmental externalities for the full 20 years of the analysis (see previous footnote).

dThe original economic analysis discounted programmatic funding in t he years the cash was expected to be spent in country, and not the years it was obligated
(this is standard methodology). Using the original economic analysis model, the program costs were updated to reflect an increase to $303 million progr am
costs; this includes the $75 million increase and deducts costs due to descoping actions that did not impact the anticipated benefits of the analysis. Although
the additional program funds were obligated late in 2013, they will likely be spent in 2014 and 2015. The updated analysis estimated that half of the additional
funds would be spent in 2014 and half in 2015. The resulting increase in program funds causes a 6.8% increase over the original esti mated total economic
costs of KHPP.

Most importantly, adjusting for an increase in program funds for KHPP using the original analysis, the net present value (NPV) ofthe project is
$26 million, which is a 13.6% internal rate of return. This implies that the economic benefits of the program still outweigh the economics costs
of the program, despite the increase in program funding.

Moreover, the benefits in the economic analysis only include those that can be calculated (such as the cost savings for the consumers that no
longer use expensive private diesel generation when they connect to the grid). This analysis could not possibly measure the benefits KHPP will
have on stabilization in Helmand and Kandahar, which are likely to be significant. As a result, we believe that the economic analysis considerably
undervalues the economic benefits of KHPP.
